WR-B-00-04




         AUDIT
        REPORT




                                   STAFF AUGMENTATION
                                WORKERS AT SANDIA NATIONAL
                                      LABORATORIES




                                            MARCH 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                              March 23, 2000



MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:                 Lawrence R. Ackerly, Regional Manager /s/ Lawrence R. Ackerly
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Staff Augmentation Workers at Sandia National
                      Laboratories"

BACKGROUND

Sandia National Laboratories (Sandia) has used subcontractors to provide labor on an as needed basis. One
mechanism for doing this is through its staff augmentation process, which is used for temporarily increasing
staffing by contracting for individuals with specific labor skills. As of September 1999, Sandia had a total
of 450 staff augmentation workers and spent $27.5 million for their services during Fiscal Year 1999.
Thus, the objective of our audit was to determine if Sandia's use of staff augmentation workers was
economical.

RESULTS OF AUDIT

Sandia's use of staff augmentation workers was not economical. However, given the periodic need for
temporary workers, we believe that some additional cost for short-term help is reasonable. We found,
however, that 213 (47 percent) of Sandia's staff augmentation workers had over 3 years continuous service
and, as such, are long-term workers as defined by Sandia in October of 1995. We determined that the cost
for
long-term staff augmentation workers was about $936,000 per year more expensive than if those positions
were filled with Sandia employees. Sandia was not aware of the additional cost associated with staff
augmentation workers because it did not apply the center support overhead charge to the staff augmentation
workers. Therefore, we recommended that the Manager, Albuquerque Operations Office require Sandia to
limit staff augmentation contract workers to 3 years of service and consistently allocate the center support
rate by charging it to both Sandia employees and all staff augmentation workers working on-site.

MANAGEMENT REACTION

Management concurred with our recommendation to limit staff augmentation workers to
3 years of service. Although management did not agree with the second recommendation, the action taken
on the first recommendation will mitigate the second recommendation.
STAFF AUGMENTATION WORKERS AT SANDIA NATIONAL
LABORATORIES

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                Cost of Staff Augmentation Workers at Sandia


                Details of Finding ............................................................ 2


                Recommendations and Comments ................................. 5


                Appendix


                Scope and Methodology.................................................. 7
Overview
INTRODUCTION      Sandia National Laboratories (Sandia) has, for many years, used
AND OBJECTIVE     subcontractors to provide labor on an as needed basis. One mechanism
                  for this is through its staff augmentation process, which contracts for
                  individuals with specific labor skills on a temporary basis. Sandia
                  defined temporary employment as 3 years continuous service or less.

                  As of September 1999, Sandia had a total of 450 staff augmentation
                  workers and during fiscal year (FY) 1999; Sandia spent $27.5 million
                  for their services. Thus, the objective of our audit was to determine if
                  Sandia's use of staff augmentation workers was economical.

CONCLUSIONS AND   Sandia's use of staff augmentation workers was not economical. For
OBSERVATIONS      example, the cost of a Technical Writer was $8,244 per year more
                  expensive under a staff augmentation contract than as a Sandia
                  employee. Although the cost of a staff augmentation worker was more
                  expensive, we believe that some additional cost for short-term help is
                  reasonable. We determined, however, that 213 of 450 staff
                  augmentation workers have over 3 years of continuous service. By
                  Sandia's own definition, such workers are no longer short-term help.
                  Thus, we determined the cost for long-term staff augmentation workers
                  was about $936,000 per year more expensive than if those positions
                  were filled with Sandia employees.

                  The audit identified a material internal control weakness that
                  management should consider when preparing its yearend assurance
                  memorandum on internal controls.



                                                   _______(Signed)________
                                                   Office of Inspector General




Page 1                                                Introduction And Objective/
                                                      Conclusions And Observations
Cost Of Staff Augmentation Workers At Sandia
Long-Term Use Not    Sandia's use of staff augmentation workers was not economical. As
Economical           of September 1999, Sandia had a total of 450 staff augmentation
                     workers, including 213 (47 percent) that had worked there for 3 or
                     more continuous years. The following chart provides examples of the
                     wide variety of jobs filled by long-term staff augmentation workers as
                     well as the cost difference for specific jobs under staff augmentation
                     contracts versus the same jobs filled with Sandia employees.

                                   Annual Full Cost Differential By Job Title
                             Staff Augmentation Worker Versus Sandia Employee


                                                   Staff
                               Title            Augmentation        Sandia        Difference
                                                  Worker           Employee
                      Technical Writer/
                      Editor                       $79,964          $71,720         $8,244
                      Computer Hardware
                      Research/
                      Development                 $171,686         $165,062         $6,624
                      Electromechanical
                      Technology                   $93,705          $87,849         $5,856
                      Engineering Support          $68,841          $63,978         $4,863
                      Nuclear Engineering         $104,012          $99,749         $4,263
                      Administrative
                      Support                      $41,473          $39,340         $2,133

                     The full cost of a staff augmentation contract worker is the sum of the
                     direct labor rate, the contractors' fringe rates, the contractors' profit
                     margins, and Sandia's center support charges. The full cost of a
                     Sandia employee is the sum of the standard labor rates, the fringe
                     rates, and center support charges. The above chart illustrates that
                     staff augmentation contract workers are more expensive than Sandia
                     employees. We acknowledge, however, that on a short-term basis
                     additional cost for specific work could be beneficial.

                     Economy of operation is required of Sandia by its contract with the
Requirements For     Department of Energy (DOE). Specifically, its contract states that the
Economy              acquisition of property and services shall be obtained on a least-cost
                     basis. Thus, Sandia should make staffing decisions based on what is
                     most economical. Also, the Cost Accounting Standards require




Page 2                                                                 Details Of Finding
               Sandia to allocate its indirect costs to its direct activities based on a
               beneficial or causal relationship between the costs. Sandia's center
               support charge is an indirect overhead cost that should be allocated to
               all that benefit from it.

               Additionally, in October 1995, Sandia developed a policy for its staff
               augmentation process. This policy defined staff augmentation as being
               a process for temporarily increasing a department or program staff by
               contracting for individuals with specific labor skills. The policy limited
               staff augmentation workers to 3 years of continuous service to Sandia.

               The use of staff augmentation workers was uneconomical because of
Why Staff      the overhead and profit margin charged by the staff augmentation
Augmentation   contractors, and because Sandia did not follow its policy of limiting
Costs More     augmentation workers to 3 years. It was not readily apparent that the
               augmentation workers cost more than Sandia employees because
               Sandia did not fully distribute all of its center support charges. Under
               Sandia's method, the direct cost for a staff augmentation worker was
               their direct labor rate plus the contractor's fringe benefits, overhead, and
               profit ranging from 34-49 percent. On the other hand, the direct cost
               for a Sandia employee was their standard labor rate plus the fringe
               benefit rate of about 20 percent and center support charges that
               averaged 19 percent. Since the labor rates of staff augmentation
               workers and Sandia employees were comparable, when these indirect
               rates were added, the cost appeared about the same. However, this
               comparison was skewed because center support was not charged to staff
               augmentation workers.

               Center support rates should have been charged to both Sandia
               employees and all staff augmentation workers. Examples of center
               support include the center director's time; environment, safety and
               health training; space costs; facilities services; and computer support.
               Since staff augmentation workers are employed on-site and work along
               side Sandia employees, they benefit from and should be charged the
               costs of center support. In fact, Sandia already charges center support
               to 11 staff augmentation workers in one of its organizations. Thus, in a
               correct cost comparison of staff augmentation workers and Sandia
               employees, the cost of a staff augmentation worker would be
               substantially higher than a Sandia employee. For example, under this
               method, a Drafter/Designer costs $86,684 per year under a staff
               augmentation contract and $79,591 per year as a Sandia employee.




Page 3                                                              Details Of Finding
                  With respect to the 3-year limitation, Sandia did not adhere to its own
                  requirement because program groups did not want to lose augmentation
                  workers who had become valuable to Sandia. Such workers played a
                  vital role and, in the view of program officials, could not be replaced
                  without disruption.

Costs And Risks   The 213 positions filled by staff augmentation workers on a long-term
                  basis cost Sandia about $936,000 per year more than if those positions
                  were filled with Sandia employees. Further, long-term use of staff
                  augmentation workers creates a risk to Sandia that the personnel could
                  be construed as Sandia employees who could be entitled to additional
                  benefits.




Page 4                                                              Details Of Finding
RECOMMENDATIONS   We recommended that the Manager, Albuquerque Operations Office
                  require Sandia National Laboratories to:

                     1. implement its staff augmentation policy to limit staff
                        augmentation workers to 3 years of service; terminate or convert
                        those staff augmentation workers who have 3 years or more of
                        continuous service to regular Sandia employees; or fill the
                        positions with regular Sandia employees, unless clear
                        justification can be made as to a limited short-term future need
                        for each position; and,

                     2. consistently allocate the center support rate by charging it to
                        both Sandia employees and all staff augmentation workers
                        working on-site.

MANAGEMENT        Management concurred with the first recommendation to limit staff
REACTION          augmentation workers to 3 years of service or to the expiration date of
                  the worker's current contract. If Sandia has a continuing need for
                  workers' services at the completion of their current contract, it has
                  agreed to convert those workers to Sandia employees or submit to DOE
                  a justification for a new short-term agreement to meet future needs.

                  However, management disagreed with the second recommendation.
                  Management did not want to allocate the center support rate to both
                  Sandia employees and staff augmentation workers on-site equally
                  because the rate is more attributable to a Sandia employee than to an
                  augmentation worker. Further, management questioned the report's
                  conclusion that the long-term staff augmentation worker is more
                  expensive than the Sandia employee. Management said that the Office
                  of Inspector General did not use established standard labor rates for
                  Sandia employees and did not apply the same labor hours to the staff
                  augmentation worker.

                  Management also pointed out that it has drastically reduced the amount
                  of augmentation workers since FY 1997. In fact, the costs of
                  augmentation workers is approximately five percent of the total Sandia
                  labor costs. Thus, the cost objective of the second recommendation
                  would be minor. Finally, it has agreed to revisit the issue in the future
                  if cost allocation inequalities still exist.




Page 5                                             Recommendations And Comments
AUDITOR COMMENTS   Management's comments to the first recommendation are responsive.
                   However, it disagreed with the second recommendation. Although we
                   agree that center support costs are not equally attributed to both types of
                   workers and the labor costs of augmentation workers are small, the
                   records maintained at Sandia do not provide a better way to allocate
                   these costs. Regardless, center support costs should be allocated to
                   benefiting components on a consistent and fair basis. With respect to
                   the costs of Sandia employees, the report was based on established
                   standard labor rates and annualized. To make the two types of labor
                   consistent, we annualized the staff augmentation workers' salary based
                   on the worker's contract. Thus, we believe our conclusions are
                   accurate.




Page 6                                              Recommendations And Comments
Appendix
SCOPE         The audit was performed at the Albuquerque Operations Office and
              Sandia National Laboratories from July to November 1999. We limited
              our review to Sandia's staff augmentation program.

METHODOLOGY   To accomplish the audit objective, we:

              •   reviewed DOE guidance on the use of staff augmentation workers;

              •   interviewed appropriate Sandia officials to understand their
                  procedures for using staff augmentation workers;

              •   obtained staff augmentation workers' start dates to determine if the
                  workers were, in fact, temporary; and,

              •   performed detailed analysis of the difference in cost between a staff
                  augmentation worker and a Sandia employee.

              The audit was conducted in accordance with generally accepted
              government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objectives of the audit. In accordance
              with the Government Performance and Results Act of 1993, we
              determined there were no applicable performance measures in the staff
              augmentation contracts. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We performed limited testing of
              the reliability of computer-processed data.

              An exit conference was held with management officials on February 22,
              2000.




Page 7                                                   Scope And Methodology
                                                                       Report No: WR-B-00-04


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948 or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:


              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
